<html>
<title> - NOMINATION OF HON. ALEJANDRO N. MAYORKAS</title>
<body><pre>[Senate Hearing 113-404]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-404

 
                NOMINATION OF HON. ALEJANDRO N. MAYORKAS
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

 NOMINATION OF HON. ALEJANDRO N. MAYORKAS TO BE DEPUTY SECRETARY, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                             JULY 25, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
82-745                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
         Daniel P. Lips, Minority Director of Homeland Security
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     4
    Senator Carper...............................................     5
    Senator Heitkamp.............................................    11
    Senator McCaskill............................................    13
    Senator Tester...............................................    20
Prepared statements:
    Senator Carper...............................................    31
    Senator Landrieu.............................................    35
    Senator Coburn...............................................    36

                               WITNESSES
                        Thursday, July 25, 2013

Hon. Dianne Feinstein, A United States Senator from the State of 
  California
    Testimony....................................................     1
    Prepared statement...........................................    38
Hon. Alejandro N. Mayorkas, to be Deputy Secretary, U.S. 
  Department of Homeland Security
    Testimony....................................................     9
    Prepared statement...........................................    41
    Letter from the Office of Government Ethics..................    44
    Biographical and financial information.......................    47
    Responses to pre-hearing questions...........................    70
    Responses to post-hearing questions..........................   143
    Letters submitted by Senator Carper..........................   181
    Letters of support...........................................   185


                             NOMINATION OF

                       HON. ALEJANDRO N. MAYORKAS

                              ----------                              


                        THURSDAY, JULY 25, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Landrieu, McCaskill, Tester, and 
Heitkamp.
    Chairman Carper. Good morning, everyone. Welcome to this 
hearing. Welcome, Secretary Mayorkas. Bienvenido. Welcome to 
Senator Feinstein and certainly welcome to our colleagues on 
the Committee, especially Senator Landrieu, who has agreed to 
say a few words about you before we get started.
    Senator Feinstein and Senator Landrieu are leaders on the 
Appropriations Committee. They have a markup literally going on 
right now. I am just very grateful for your willingness to come 
here and to introduce Director Mayorkas, and I am just going to 
yield directly to you, Senator Feinstein, for whatever you 
would like to say. We are just grateful that you could come. 
Thank you.

STATEMENT OF HON. DIANNE FEINSTEIN,\1\ A UNITED STATES SENATOR 
                  FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman, 
and I appreciate the courtesy, so thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Feinstein appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    It is a pleasure for me to introduce President Obama's 
nominee for Deputy Secretary of the Department of Homeland 
Security (DHS), Alejandro Mayorkas.
    I have known Ali for many years and am proud to have 
recommended him to President Clinton for the position of United 
States Attorney for the Central District of California as well 
as to President Obama for his current position as Director of 
U.S. Citizenship and Immigration Services (USCIS).
    The role of Deputy Secretary within the Department of 
Homeland Security is really an important one. The Deputy 
Secretary is charged with overseeing the agency's efforts to 
counter terrorism and enhance the security and management of 
our borders while facilitating trade and travel and enforcing 
our immigration laws.
    Additionally, this Deputy Secretary assists in the 
safeguarding and security of cyberspace and provides support 
for national and economic security in times of disaster in 
coordination with Federal, State, local, international, and 
private sector partners.
    Mr. Mayorkas I believe is well qualified for this position. 
He brings to this office a diverse background and set of 
experiences in both the private and public sectors.
    Born in Havana, Cuba, Mr. Mayorkas earned his Bachelor of 
Arts (B.A.) with distinction from the University of California, 
Berkeley, in 1981. He earned his law degree from Loyola Law 
School in 1985.
    Those who have enjoyed the opportunity to work with him 
regard him as being highly intelligent, thoughtful, kind, 
compassionate, and dedicated to doing the ``right thing.''
    From 1989 to 1998, he served as an Assistant U.S. Attorney 
for the Central District of California where he prosecuted a 
wide array of Federal crimes, specializing in the prosecution 
of white-collar crime. Federal law enforcement agencies 
recognized his success with multiple awards. For example, he 
received commendations from the Federal Bureau of Investigation 
(FBI) Director Louis Freeh for his successful prosecution of 
Operation PolarCap, the largest money-laundering case in the 
Nation at the time.
    He continued to distinguish himself by becoming the first 
U.S. Attorney in the Central District of California to be 
appointed from within the office. He created the Civil Rights 
Section in the office to prosecute hate crimes.
    He developed an innovative program to address violent crime 
by targeting criminals' possession of firearms, prosecuting 
street gangs, and at the same time developing after-school 
programs to help at-risk youth discover and realize their 
potential. He uniquely demonstrated the ability to 
simultaneously be firm with criminals, protective with the 
innocent, and supportive and empowering to our future leaders.
    As supported by the many law enforcement and community 
awards he received during his tenure as a U.S. Attorney, Mr. 
Mayorkas' accomplishments extended beyond his district.
    He successfully expanded his office's community outreach 
programs and cooperation with international players in the 
fight against crime. He directly resolved cases while also 
overseeing hundreds of attorneys addressing immigration 
matters, which included complex and sensitive prosecution of 
individuals and rings producing false immigration documents, 
illegal reentry cases, and alien-smuggling conspiracies.
    The Administrator for the Drug Enforcement Administration 
(DEA), Michele Leonhart, noted, and I quote, ``he was 
instrumental in broadening collaboration between law 
enforcement agencies to address violent crime and expanded 
cooperation with other nations to address the growing threat of 
transnational crime.''
    Combined with his prosecuting white-collar crime, public 
corruption, computer-related crime, and international money 
laundering, she wrote that such a ``broad base of experience . 
. . provides him with a unique perspective on threats to 
national security.''
    He further developed his sharp legal skills as a partner at 
O'Melveny & Myers from 2001 to 2009 where he represented 
companies in high-profile and sensitive government enforcement 
cases. He was recognized by his worldwide firm with an annual 
award for ``leadership, excellence, and citizenship,'' and was 
named by the National Law Journal (NLJ) as one of the ``50 Most 
Influential Minority Lawyers in America'' in 2008.
    Since his confirmation as Director of USCIS 4 years ago in 
2009, he has continued to exert his influence through 
leadership, excellence, and citizenship in accomplishing the 
agency's mission. He has improved the immigration services and 
policies of USCIS by realigning its priorities for a modern-day 
America that seeks to preserve its legacy as a Nation of 
immigrants while ensuring national security and public safety--
no easy task.
    Throughout his current role as Director of USCIS he has 
successfully preserved and increased the integrity of our 
immigration laws by decreasing fraud and bringing 
accountability to our immigration system. He has worked to 
secure our Nation's criminal and immigration laws in the face 
of increasing gang and border violence.
    As technology advances, so too have our needs to prevent 
fraud and to safeguard immigration documents from tampering. 
Mr. Mayorkas has confronted that challenge by enhancing the 
scope and frequency of national security vetting of applicants 
for immigration benefits and by redesigning immigration 
documentation with enhanced security features.
    He has led USCIS in the other half of its mission, to 
preserve the role of America as a just Nation that treats 
immigrants at our shores humanely and with an eye toward the 
potential they bring to our Nation.
    To combat notario fraud and other unscrupulous practices 
that undermine the integrity of the immigration system, Mr. 
Mayorkas launched the Unauthorized Practice of Immigration Law 
initiative. It is a nationwide collaborative effort with 
Federal, State, and municipal agencies and enforcement 
authorities that work to raise awareness among immigrant 
communities and to investigate and prosecute wrongdoers.
    After the 2010 earthquake in Haiti, he developed and 
implemented a humanitarian parole program on an emergency basis 
to save orphans and unite children with their adoptive families 
here.
    Significantly, under President Obama's directive to grant 
deferred action to immigrants who were brought to this country 
as children and who seek to legally remain in the United 
States, Mr. Mayorkas swiftly implemented the Deferred Action 
for Childhood Arrivals (DACA), initiative in 60 days. In less 
than 1 year, over half a million people have applied to remain 
in the United States, the only home they have known.
    He has realigned the agency's organizational structure, 
including 246 offices and facilities worldwide, to more 
accurately serve key priorities and achieve efficiency. He has 
stringent budget reviews that have resulted in cost-saving 
measures of $160 million in budget cuts for fiscal year (FY) 
2010.
    Mr. Chairman, I took an additional amount of time because I 
know there are currents swirling around Mr. Mayorkas's 
confirmation. But I also know that this is an incredibly 
special human being who is well deserving of this position, and 
I know that this Committee will do the right thing and confirm 
him for nomination to the floor of the Senate.
    Thank you very much.
    Chairman Carper. Thank you very much.
    Senator Landrieu, thank you so much for taking time to join 
this Committee as well as your other Committee, and we welcome 
your remarks. Please proceed.

            OPENING STATEMENT OF SENATOR LANDRIEU\1\

    Senator Landrieu. Thank you, Mr. Chairman. I will be brief.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Landrieu appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    Chairman Carper. You do not have to be brief.
    Senator Landrieu. I wanted to be here to join Senator 
Feinstein in that fine and comprehensive and strong and 
excellent introduction of Alejandro Mayorkas. I have come to 
know this gentleman very well over the last several years and 
want the Members of this Committee to know that I have hardly 
worked with a finer individual in any Department of the Federal 
Government. He is a can-do administrator with a heart for 
people, an eye on the bottom line, and a person that is 
absolutely full of the highest integrity.
    Unlike Senator Feinstein, I did not know Ali Mayorkas 16 
years ago. I met him most recently 2 years ago and was so taken 
by his immediate willingness to help in a very serious problem, 
Mr. Chairman, that had to do with children that had been 
literally lost, adoptees stuck in orphanages for years, parents 
in America desperate for someone to listen to them. And this 
man, who runs the largest immigration agency in the world with 
all of the pressure that is on him from all of us, took time 
out of his schedule and identified some staff that could help. 
To me, that says it all. And we need people in our government 
that are willing to serve people directly, that understand the 
hearts of people, and I know Ali Mayorkas is that kind of 
person.
    I am going to submit some additional statements about the 
swirling that Senator Feinstein talked about into the record so 
as to not gum up the meeting this morning. But I just want to 
say how strongly I feel that the President could not have found 
a better person, with more integrity than the gentleman sitting 
before us today. And I am going to support him wholeheartedly. 
I am going to talk with every Member of this Committee on both 
sides of the aisle and urge them to quickly confirm this 
nominee because this department needs all the focus and help. 
And as the Chair of the Homeland Security Appropriations 
Committee, I hope my voice and my opinions will be strongly 
heard.
    I thank you, Mr. Chairman, and best of luck to you, Mr. 
Mayorkas. And I thank your family for being here. His wife is 
not here, and his kids, because they have taken a vacation, and 
he has not made a vacation in the last 4 years, he has been so 
busy. But his brothers are here to support him, and his family 
is very important to him, and as a refugee, political refugee 
from Cuba in the 1960s, I think he most certainly can 
appreciate the importance of our democracy, our laws, and the 
significance of citizenship to the people of our Nation and the 
world.
    Thank you.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Senator Landrieu, thank you very much.
    Let me just say, Secretary Mayorkas, you could not have two 
better advocates than Senator Landrieu and Senator Feinstein. I 
think you know that. And we are just grateful that each of you 
could be here to share your thoughts and your determination to 
ensure that we do the right thing.
    Today we meet to consider the nomination of Alejandro 
Mayorkas, President Obama's choice to serve as Deputy Secretary 
of the Department of Homeland Security. Mr. Mayorkas currently 
serves, as we heard, as the Director of U.S. Citizenship and 
Immigration Services. We thank him for that service and for his 
willingness to be considered for the Deputy Secretary position.
    This Committee is responsible for working with the 
Administration to help protect our Nation's security at home 
and abroad. At the same time, we strive to make sure that 
Federal agencies work better and more efficiently with the 
resources that we entrust to them.
    Part of our responsibility is ensuring that we have 
effective leaders in place to provide essential guidance. And 
to that end, our Committee must consider Administration 
nominees in both a thorough and a timely manner as part of the 
full Senate's confirmation process.
    At the Department of Homeland Security alone, I believe 
there are 15 senior leadership positions that are or will be 
vacant in the very near future. At least six of these positions 
require Senate confirmation. I call this phenomenom ``Executive 
Branch Swiss Cheese.''
    Congressman Jason Chaffetz, a Republican colleague from 
Utah who sits on the House Homeland Security Committee, 
recently put the leadership predicament at the Department of 
Homeland Security this way, here is what he said: ``It is one 
of the biggest agencies that we have, and it has one of the 
lowest levels of morale on record, based on the surveys. And 
when you have vacancies at the top, you have this vacuum that 
is unfulfilled, and there is a total lack of leadership.''
    He has a point. In 6 weeks, we face the prospect of a 
Department of Homeland Security led by an Acting Secretary and 
an Acting Deputy Secretary. The issues this Department deals 
with every day, including the days ahead, are daunting: the 
threat of terrorist attacks, cyber attacks on a 24/7 basis, 
border security, immigration reform, and the list goes on.
    This Department has needed and will continue to need strong 
leadership. Janet Napolitano and former Deputy Secretary Jane 
Holl Lute have provided that for the past 4 years. Jane has 
already left, and Secretary Napolitano will be gone by early 
September. All of us must feel a sense of urgency to ensure 
that we have the leadership that this Department needs in 
place, and soon.
    Having a confirmed Deputy Secretary of Homeland Security 
will help fill this leadership vacuum. It is critical then, 
that we carry out our constitutional responsibility to provide 
``advice and consent.''
    Although our nominee is currently the Director of the 
agency that manages the largest immigration system in the 
world, as Senator Landrieu has said, I am sure it comes as no 
surprise to him when I say the next Deputy Secretary will have 
some big shoes to fill.
    Former Deputy Secretary Jane Holl Lute was widely respected 
by this Committee on a bipartisan basis for her leadership, for 
her expertise, and for her candor. I think it is safe to say 
that the Department needs somebody with her same level of 
commitment to tackling problems head-on.
    In no small part due to her leadership and that of the 
Secretary, the Department today made great strides in many 
areas, for example, in narrowing the many operational and 
management issues identified as ``high risk'' by the Government 
Accountability Office (GAO).
    In my talks with Director Mayorkas, I believe he 
understands well these management challenges and is committed 
to continuing these efforts and to move the Department further 
forward.
    His leadership has earned the respect of several former 
Department of Homeland Security officials, including Jane Holl 
Lute, who said to me she would sit next to you if it would help 
today; Richard Skinner, Inspector General (IG); Elaine Duke, 
Under Secretary for Management; and Robert Bonner, Customs and 
Border Protection (CBP) Commissioner--all of whom have written 
strong letters of recommendation for Director Mayorkas, as have 
many other people.
    I will ask unanimous consent that these letters\1\ and many 
others we have received--including one from the U.S. Chamber of 
Commerce--be included in the hearing record. Without objection.
---------------------------------------------------------------------------
    \1\ Letters of support for Mr. Mayorkas appears in the Appendix on 
page 185.
---------------------------------------------------------------------------
    I would also like to take a minute to review Mr. Mayorkas' 
qualifications. The Senate has twice before found him qualified 
for Senate-confirmed positions, as Senator Feinstein has said. 
The Senate confirmed him by voice vote in 1999 to serve as U.S. 
Attorney for the Central District of California, the largest 
Federal judicial district in the Nation. It did so again in 
2009 to serve as the Director of U.S. Citizenship and 
Immigration Services.
    As Director of that agency, he has made national security a 
priority by taking on fraud head-on. He even created a new 
directorate for fraud detection and prevention.
    He was also responsible for turning around the agency's 
ambitious ``Transformation'' project to create an electronic 
case management system. This system had previously been mired 
in cost overruns and scheduling delays. Now it is on a much 
sounder footing and is beginning to deliver new capabilities 
for users every few months.
    He was also in charge of standing up a massive new program: 
the Deferred Action for Childhood Arrivals. Not everyone may 
agree on the merits of this program proposed by the President, 
but it is one I support, and I know many of my colleagues do. 
But I think we can all agree on this: That getting it up and 
running in a very short time--60 days to be exact--is an 
amazing accomplishment.
    Of course, with the immigration debate in Congress still 
ongoing, Director Mayorkas' expertise would be extremely 
helpful in leading this Department that would be charged with 
implementing comprehensive immigration reform. This is where 
the rubber will hit the road. But there are also some questions 
that have recently been raised about Director Mayorkas' 
qualifications.
    Over the last 72 hours, we have learned, albeit through 
some rather unusual circumstances, that Director Mayorkas is 
reportedly the subject of an ongoing DHS Inspector General 
investigation. News reports suggest that the investigation 
relates to a purported role he may have played in facilitating 
investor visas.
    At this point in time, we do not have all the facts. It is 
also my understanding that Director Mayorkas has not even been 
interviewed by the Office of Inspector General (OIG), despite 
the fact that this investigation began almost a year ago, in 
September 2012. Furthermore, the Office of Inspector General 
apparently does not have any ``preliminary findings'' regarding 
Mr. Mayorkas, in contrast to earlier reports. In fact, the 
initial allegations have not been confirmed at this point in 
time, and the Office of Inspector General has found no 
wrongdoing by Mr. Mayorkas.
    I might also say the same Inspector General's Office has 
not had a Senate-confirmed leader for over 2 years. They have 
had a series of Acting Directors, one of whom is under 
investigation himself, I think by a Member of this Committee.
    And, last, before this highly sensitive information was 
disseminated in a rather remarkable manner on Monday night, the 
Office of Inspector General had not informed Mr. Mayorkas of 
its investigation.
    So rather than allowing rumor, speculation, and innuendo to 
rule the day, this hearing will allow us to continue the 
process of vetting this nominee.
    I recognize that our Republican colleagues, in a letter 
sent to me yesterday, would like me to hold all action--
including even a hearing--on Mr. Mayorkas' nomination until the 
Inspector General has concluded his investigation. I 
respectfully disagree.
    First, a hearing provides an appropriate setting for 
Members of our Committee to ask questions of the nominee and to 
get answers in public and under oath. This type of open forum 
where Members ask questions and the nominee is given the 
opportunity to respond should be encouraged, not stifled.
    Second, in talking with the Office of Inspector General, we 
know it is months away from completing its investigation. And 
given that this office is confronting its own set of challenges 
and controversies, as I suggested, it appears highly likely 
that this investigation will not be concluded in a timely 
manner.
    I believe it would actually be irresponsible to leave the 
Department of Homeland Security without a permanent Deputy 
Secretary and then with an Acting Secretary until this 
investigation is completed, especially given that, on September 
7, our friend Janet Napolitano will be off to serve in her new 
responsibilities heading up the University of California 
education system.
    How can we honestly expect the Department of Homeland 
Security to effectively and efficiently carry out its mission, 
the kinds of missions that I talked about earlier, without 
strong and stable leadership?
    Given the qualifications of this nominee--you heard about 
him from Senator Feinstein at length and from Senator Landrieu 
as well--I believe it is important for us to proceed with the 
nomination hearing today. In doing so, we will be practicing 
one of my core values taught to me by my parents: To treat 
other people the way you want to be treated. I have met with 
Mr. Mayorkas on several occasions now, and at some length 
earlier this week again, and one of the questions that I asked 
him--I said, ``I try to treat other people the way I want to be 
treated, and I put myself in your shoes, and if someone were 
questioning my integrity''--we live our whole lives--Claire 
McCaskill, Heidi Heitkamp, Mary Landrieu, Dianne Feinstein, our 
colleagues, we live our whole lives trying to live lives of 
integrity. And to have them questioned by innuendo and being 
twisted in the wind for 6 weeks, I said, ``Do we need that? '' 
We are trying to get people to come and serve in these 
positions. We cannot even get somebody through vetting to be 
the Inspector General for this Department because they do not 
want to go through the confirmation process. And he dropped out 
of the vetting process and said, ``I do not want to bring my 
family from California to here. Why go through all that?''
    We need to move. At least we need to move and hold a 
hearing. And we are going to have that hearing today.
    At the end of the day, I am interested in nothing but the 
truth. I hope my colleagues on this Committee feel the same 
way. All nominees--and that includes Mr. Mayorkas--have an 
opportunity to address Members' questions about the nominees' 
experiences and qualifications for a position--both in public 
and in private. We have seized this opportunity to speak with 
Mr. Mayorkas privately several times in regards to his 
qualifications. I believe he deserves at least to tell his 
story in public and under oath and to be questioned by all of 
us. I have taken the opportunity to review Mr. Mayorkas' FBI 
file this week--not once but twice. I asked to look at it again 
to see if maybe I had missed something. But nothing in my 
conversations with Mr. Mayorkas or in my review of his FBI file 
has convinced me that he should not at least have the 
opportunity to be heard in a hearing.
    And when we talked--I would say to my colleagues, when we 
spoke with him earlier this week, I asked him, ``Do you want to 
go forward with this? Do you want to go forward with this and 
subject yourself to this kind of hearing and this kind of 
grilling in public under oath?'' And he said, ``I am eager to 
appear.''
    And so we are going to make that possible for you. We are 
delighted that you are here. We welcome your brothers James and 
Anthony. We are glad you guys are here. I understand you have 
some daughters and a wife somewhere else, and we are sorry that 
they are not here with us, but we are happy that you are.
    And so with that having been said, I am going to introduce 
our witness. We are going to swear him in, and then we are 
going to hear from him and ask some questions.
    Alejandro Mayorkas has filed responses to a biographical 
and financial questionnaire, answering pre-hearing questions 
submitted by this Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data, which is on file and 
available for public inspection in the Committee's offices.
    Now, as you may know, our Committee rules require that all 
witnesses at nomination hearings are asked to give their 
testimony under oath, and I am going to ask you to join me in 
standing, Mr. Mayorkas, and to raise your right hand. Do you 
swear that the testimony you are about to give the Committee is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Mayorkas. I do.
    Chairman Carper. Please be seated.
    I am going to ask you to go ahead and proceed with your 
statement. Feel free to introduce your family or any other 
guests that are here with you today. And then I am going to ask 
you three perfunctory questions that we ask of all witnesses, 
and then we will open the questioning up for our Committee. 
Please proceed. Welcome.

   TESTIMONY OF HON. ALEJANDRO N. MAYORKAS,\1\ TO BE DEPUTY 
        SECRETARY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Mayorkas. Thank you very much. Mr. Chairman, 
distinguished Members of the Committee, I am deeply honored by 
the President's nomination and the opportunity to appear before 
you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mayorkas appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    I am deeply honored by Senator Feinstein's introductory 
remarks, by those of Senator Landrieu, and those of yourself, 
Mr. Chairman.
    In my professional life, I have had the privilege of 
serving our country for nearly 16 years. My love of our country 
and my drive to serve it are grounded in my family history and 
upbringing. My parents brought my sister and me to this country 
as political refugees in 1960, having escaped the communist 
takeover of Cuba. Our parents instilled in their children a 
deep and everlasting appreciation for the freedoms and 
liberties that define our country and an abiding respect for 
its laws. Our Nation, they taught us, is like no other, and its 
qualities are never to be taken for granted but instead 
cherished and protected.
    Mr. Chairman, distinguished Members of the Committee, my 
beautiful wife and our two beautiful young daughters are on a 
vacation with our daughters' grandmother. We thought it 
important that they carry through with those long ago planned 
travels because, quite frankly, there may not be very many more 
of them.
    Far less beautiful but no less loved, my two brothers are 
here---- [Laughter.]
    In their stead, and I am deeply grateful.
    Chairman Carper. It looks like they have your back. 
Probably always have, my guess is.
    Mr. Mayorkas. I am deeply grateful that----
    Chairman Carper. Happy to see you guys here. Welcome.
    Mr. Mayorkas [continuing]. They traveled across the country 
to be here: My brother James and my brother Anthony.
    I have served our country for nearly 12 years as a Federal 
prosecutor in the United States Attorney's Office for the 
Central District of California. Each and every day, day and 
night and most often 7 days a week, I enforced the laws of this 
land, and I did so aggressively and with distinction. I did so 
first as an Assistant United States Attorney (AUSA), and then 
as a Senate-confirmed United States Attorney. It was an 
incredible honor for me to stand in a court of law with law 
enforcement at my side as together we prosecuted the laws of 
this land and I announced to the judge and to the jury, 
``Alejandro Mayorkas on behalf of the United States of 
America.''
    For nearly the past 4 years, I have had the privilege of 
serving as the Director of U.S. Citizenship and Immigration 
Services, an agency within the Department of Homeland Security 
whose workforce and reach span the globe as we administer the 
largest immigration system in the world. With an incredibly 
talented and dedicated workforce, some of whom are here today, 
for which I am also grateful, we have prioritized and 
strengthened our agency's national security safeguards and more 
vigorously combated fraud to protect the integrity of the 
system of which we are guardians.
    Mr. Chairman, distinguished Members of the Committee, my 
parents not only instilled in us a deep and everlasting 
appreciation for the freedoms and liberties that define our 
country and an abiding respect for its law, my parents also 
taught us what it means to live a principled life, a life 
grounded in values, ethics, honor, and integrity. Their 
teachings, advice, lectures, admonitions, and support were 
strong but not more powerful than the lesson of example. They 
conducted themselves as I aspire to lead my life. As this 
Committee considers whatever I have accomplished, please 
understand that it is a glimpse into the character of my 
parents.
    I look forward to your questions. I am eager to answer 
them, and I am honored to be before you. Thank you again for 
the privilege.
    Chairman Carper. Thanks for being here today. Thanks for 
your service, and thank you for your willingness to testify and 
respond to our questions and serve if confirmed.
    I am going to delay my questioning and turn to former 
Attorney General, now Senator Heidi Heitkamp from North Dakota. 
Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman. I have to tell 
you, Director----
    Chairman Carper. Could you hold for just a second? I 
apologize. I am supposed to ask these three perfunctory 
questions that we ask of all witnesses, and then I will yield 
back to you.
    The first question is, again, the standard question we ask 
of all nominees. You have been asked these questions before in 
this hearing room. Is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Mayorkas. No.
    Chairman Carper. OK. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Mayorkas. No.
    Chairman Carper. And, finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Mr. Mayorkas. Yes.
    Chairman Carper. Thank you very much.
    I apologize, Senator Heitkamp. You are recognized.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, Mr. Chairman, and 
thank you for conducting this hearing.
    As a preliminary matter, I want to express to the Chairman 
how much I agree with his comments this morning and with his 
concern about a process that seems to get short-circuited by 
rumors and by innuendo and the lack of credible evidence.
    And I want to tell you, Director, how much I enjoyed 
meeting you in my office as we kind of relayed some of the 
concerns I have, homeland security concerns I have for my 
State, and understanding that your commitment to law 
enforcement, your commitment and your support by people you 
have worked with, which means the world to me, that cops like 
you and law enforcement likes you, because you are willing to 
do the tough work of taking tough cases to trial and 
representing the United States of America in cases that maybe 
other people might duck on. And so I really appreciated hearing 
that history about you. I really appreciate having the chance 
to meet with you. And hopefully if everything comes to fruition 
the way we think it will, I look forward to the opportunity of 
bringing you to North Dakota and introducing you to the unique 
challenges we have on the Northern Border and the unique 
challenges that we have in law enforcement in a booming 
economy.
    I had to decide this morning whether we are going to have 
the discussion that I thought we were going to have before all 
of this came to light or whether we were going to have the 
discussion that I think we should have that will help hopefully 
maybe clear the air and give you an opportunity to respond, 
because at this point it is hard from a witness' standpoint or 
from your standpoint to really have an opportunity to respond 
to what can only be an enormously frustrating situation for you 
and your family. And so I am going to jump right in, I have 
decided.
    In this situation with Gulf Coast Fund Management where you 
had multiple requests to intervene in the regular process, what 
structures, rules, or practices did you put in place to ensure 
that no ethics or rules were violated during your tenure?
    Mr. Mayorkas. Thank you very much, Senator, and it was a 
pleasure to meet you as well, and it would be an honor to be 
confirmed for this position and to have the opportunity to 
travel with you to your State and explore the challenges that 
the Northern Border faces in ensuring its security.
    Senator, if I can, the issues, difficult issues, complex 
issues, novel issues, of law and policy that challenge the 
agency and that present opportunities for resolution percolate 
up through the supervisorial chain to me when they need 
resolution and when they have broad application.
    The manner in which those cases reach me--those issues 
reach me is through cases. We are an operation. We are a large 
agency. We protect our Nation's security. We combat fraud, and 
we assess the eligibility of applicants who come before us 
through applications and petitions through the cases that they 
present to us.
    I become involved in those complex, difficult, legal policy 
issues when they are raised to my attention by my colleagues 
which very often occurs, by Members of Congress, which very 
often occurs, by news accounts, by members of the public, or by 
applicants or petitioners themselves.
    We defer to adjudicators on the front line to adjudicate 
cases. I do not adjudicate cases. I address legal/policy issues 
that are brought to my attention through the channels that I 
have outlined.
    Senator Heitkamp. What types of verbal orders or requests 
did you make to your staff on this issue that would not be 
captured by e-mail or in any other written record?
    Mr. Mayorkas. Are you speaking, Senator, with respect to 
the Gulf Coast matter?
    Senator Heitkamp. Gulf Coast, correct.
    Mr. Mayorkas. I made no orders in these cases. What I did 
was sit around the table with my colleagues, as is consistently 
my practice when indeed difficult legal or policy issues rise 
to my level. I sat around with my colleagues, and we discussed 
and resolved those issues.
    Senator Heitkamp. So there would have been some verbal 
communications beyond e-mails and written correspondence?
    Mr. Mayorkas. Most certainly. We have set up structures, 
which responds to this question and your prior one, to resolve 
difficult or legal issues. Sometimes we are able to resolve the 
issues with the colleagues who are handling the matter 
directly. Sometimes different people have to be involved in the 
discussion and bring their relevant expertise to bear. We have 
set up senior policy committees. We have set up leadership 
meetings, and we have set up open and collaborative forums to 
resolve those issues. I do not resolve those issues alone.
    Senator Heitkamp. Director, would there have been a 
scheduling note of who would have attended those discussions in 
your office?
    Mr. Mayorkas. There very well might be. Certainly there 
were a number of people around the table when we discussed the 
issues.
    Senator Heitkamp. I believe it is safe to say that the EB-5 
visa program has some challenges attached to it through its 
very nature.
    What added responsibility does an agency leader have when 
dealing with the program that can be considered controversial 
just as a result of the way the program is structured? And what 
responsibility does he or she have to ensure that their orders 
are clear and the staff understands the potential pitfalls?
    Mr. Mayorkas. If I may, Senator--and I appreciate the 
question very much--let me speak to my responsibility, and then 
let me speak about the EB-5 program about which you have 
inquired.
    It is my responsibility to ensure that we administer our 
responsibilities, our adjudicative responsibilities, our 
responsibilities to safeguard our Nation's security, our 
responsibilities to protect the integrity of the system, that 
we do so in strict accordance with the law and based on the law 
and the facts and nothing else, that our decisions are correct, 
that they are consistent, they adhere to the highest ideals of 
public service, and that they are correct. And that is how I 
have carried out my responsibilities.
    The EB-5 program is indeed controversial, and it is 
extraordinarily complex. It is like no other program that we 
administer. Quite frankly, it is a program that is primarily a 
business and economic program and not so much an immigration 
program.
    What is involved in the case is an assessment whether 
foreign capital is invested properly in a new commercial 
enterprise, whether the requisite amount of capital is at risk 
throughout the term of the investment, whether the business 
enterprise that is proposed is specifically detailed and 
viable, and whether the econometric models that are submitted 
to us to estimate future job creation are sound and reasonable. 
Those are some of the issues that are involved in the 
adjudication of the EB-5 program. And, quite frankly, when I 
arrived as the Director of this agency to U.S. Citizenship and 
Immigration Services, I observed that the program was staffed 
with nine adjudicators, no economists, no business analysts, 
and no specialists in national security and fraud detection. 
And throughout my tenure, we have built that program. We have 
brought economists to bear, we have brought business expertise, 
and we have brought individuals dedicated to ensuring the 
integrity of the program as the program has grown throughout 
the years.
    Senator Heitkamp. I am out of time.
    Chairman Carper. Thanks, Senator Heitkamp. There will be a 
second round of questions if you are able to stay. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. I know from your record you are a former 
prosecutor, and although I have to confess that I am what I 
like to affectionately call a ``911 prosecutor,'' I did not 
have the luxury that some of my Federal colleagues had of kind 
of being able to sit around and decide what cases to take, so I 
always had this little yin-yang with all the Federal 
prosecutors, because, of course, as you well know, in the 
system we thought we were the real prosecutors and you guys 
were not.
    Having said that, I know that you were moved up to U.S. 
Attorney from an Assistant USA, which is extraordinarily 
unusual and speaks highly of your leadership capability and 
your capabilities as a prosecutor.
    So as a prosecutor, I am just going to be really candid 
with you. These things that are floating out there, they may be 
rumors, they may be innuendo, this may be just political. But 
you have to do a rebuttal here, and I do not think you can talk 
around it, and I want to give you the opportunity to say what 
you want to say about what is being said about you because you 
are not going to get another opportunity like this, and this 
thing is going to swirl and there are going to be 
recriminations, and it is going to be a political brouhaha. 
And, I respect IGs tremendously, although I will admit this IG 
office is troubled, for a lot of reasons. But why don't you 
take a few minutes here and say what you would want us to know 
about the accusation that is being made about you, that you 
tried to inappropriately use your position to influence the 
outcome of a matter because of who was interested in the 
outcome of the matter.
    Mr. Mayorkas. Senator, thank you very much for the 
opportunity, and let me share with you, if I may, that I very 
often felt like a 911 prosecutor. [Laughter.]
    Senator McCaskill. I am sure you did.
    Mr. Mayorkas. Senator, it was Monday evening when I was 
forwarded a copy of the e-mail that was published to this 
Committee about an apparent Inspector General investigation of 
which I reportedly am a subject. I had no idea of the existence 
of that investigation, and, quite frankly, I still do not 
understand it.
    I will say this, and I say it firmly, and I say it 
unequivocally, and I say it after 16 years of service to this 
country, 12 of which were as a law enforcement official: I have 
never, ever in my career exercised undue influence to influence 
the outcome of a case. I have never based my decisions on who 
brings a case but, rather, upon the facts and the law. I have 
taken in my life oaths of office, and each and every day--
morning, day, and night--I have lived by those oaths.
    And, Senator, I referred to it on a personal matter, on a 
personal level in my opening statement. My entire life I have 
tried to live in a way and I have aspired to live in a way that 
brings honor to my parents, and there has never been an 
instance in which I have failed to do so in terms of the 
integrity with which I have brought my efforts to bear on 
everything I have done, whether in the private sector or the 
public sector.
    I look forward to learning about the allegations, because I 
still do not quite understand them, but I will tell you that 
the allegations as they have been framed are unequivocally 
false.
    The Gulf Coast matter is a matter about which we received 
complaints in 2011. Issues in that case rose to my attention 
because, as I referred to earlier, the EB-5 program is complex; 
it presents novel legal and policy issues. And a few issues 
were brought to my attention, and I addressed them with my 
colleagues around the table.
    Chairman Carper. Mr. Mayorkas, normally I do not jump in 
here, and I am not going to take away your time at all, but I 
just think it might be helpful for us to have a basic 
understanding of the EB-5 program.
    Senator McCaskill. Sure.
    Chairman Carper. And then we will--the clock is not going 
to run----
    Senator McCaskill. You can use my time for that. That is an 
important part of----
    Chairman Carper. I would like to hear just a good, basic--
my understanding is you did not create this program. You did 
not ask it to be included in your area. It was not created in 
this Administration. In fact, it was not created in this 
century. I think it was created in maybe 1992 when we were 
struggling to try to come out of a recession.
    Senator McCaskill. You mean this decade, not this century.
    Chairman Carper. It was not created in this century. It was 
not created in this decade. But it was created in 1992. And I 
think it was created during the Administration of George 
Herbert Walker Bush. And what they were trying to do, if I am 
not mistaken, at that time is try to figure how do we get our 
economy moving. And one of the ways to get our economy moving 
is to have access to capital. In this case, how do we attract 
foreign capital to investments in this country which put people 
to work.
    But I just want you to take a few minutes and give us--I 
will call it ``EB-5 101,'' and then I am going to go back to 
Senator McCaskill. I think that would just be helpful.
    Mr. Mayorkas. Thank you very much, Mr. Chairman. I am very 
eager to complete my response to Senator McCaskill's question.
    The EB-5 program has as its basis job creation. It is 
premised on the belief that individuals who are in foreign 
countries were willing to invest their capital in commercial 
enterprises in the United States, and when those investments 
yield jobs for U.S. workers, that the foreign investors have an 
opportunity to gain lawful permanent resident status in the 
United States. That is, at the very top level, the issue.
    Chairman Carper. And not citizenship. What is it, a green 
card?
    Mr. Mayorkas. They first receive a conditional green card. 
Then after 2 years, if the jobs have been created, the 
requisite number of jobs, ten jobs specifically have been 
created or are likely to be created within a reasonable period 
of time, an undefined term--which gives you an idea of the 
issues with which we wrestle in our administration of this 
program. But if those jobs are created or are likely to be 
created within a reasonable period of time, the conditions of 
lawful permanent resident status are removed. The foreign 
individual is a lawful permanent resident and, therefore, 
eligible for citizenship after a number of years, provided that 
they qualify for the eligibility requirements of 
naturalization.
    Chairman Carper. All right. Continue, please.
    Mr. Mayorkas. So, apparently, Senator McCaskill, the 
allegation is somehow that, by sitting around the table and 
resolving a couple of difficult issues that were unsettled in 
our agency in the administration of the EB-5 program, I 
exercised undue influence. I did nothing that I have not done 
hundreds and hundreds of times when difficult issues reach my 
attention and the agency needs resolution of them.
    It is interesting to note, I think it is noteworthy, that--
because really what I think I summarized the allegations to be, 
that somehow a favorite treatment was afforded Gulf Coast. 
Well, the complaints rose throughout the agency in 2011. 
Noteworthy is the fact that the complaints persisted in 2012, 
and they continue to this day.
    Also noteworthy----
    Senator McCaskill. You mean, complaints from this----
    Chairman Carper. I am sorry. What kind of----
    Senator McCaskill. What complaints are you referencing 
specifically?
    Mr. Mayorkas. Complaints about delays, complaints about the 
failure of the agency to adjudicate the case.
    Senator McCaskill. On this particular case?
    Mr. Mayorkas. On this particular case. The complaints 
persist.
    Senator McCaskill. So it has not been resolved?
    Mr. Mayorkas. I do not know the status of the cases.
    Senator McCaskill. OK.
    Mr. Mayorkas. I addressed discrete legal----
    Senator McCaskill. So the folks that they are alleging that 
you tried to help are still not happy, is what you are saying.
    Mr. Mayorkas. The last time I heard, in 2013 they were not.
    Senator McCaskill. OK.
    Mr. Mayorkas. I do not know the status of the cases.
    Senator McCaskill. OK.
    Mr. Mayorkas. And, notably, when a report was published 
with respect to raising a question with respect to the 
integrity of this business enterprise, as I do in all 
circumstances, drawing upon my many years as a Federal 
prosecutor, drawing upon my prioritization of national security 
and fraud detection in the agency, and my execution of those 
priorities, as soon as I learned of a concern with respect to 
this matter from that perspective, I referred the case to the 
Fraud Detection and National Security Directorate.
    Senator McCaskill. I think my time is up, and I appreciate 
your many years, and I was teasing you about not being a real 
911 prosecutor. I want to make sure you know that.
    Mr. Mayorkas. I understood. Thank you.
    Senator McCaskill. Like you were teasing about your 
brothers not being as beautiful as your wife. [Laughter.]
    Mr. Mayorkas. Senator, may that be the only time we 
disagree. [Laughter.]
    Senator McCaskill. I have a feeling there will be many 
other times we will disagree, but it will be on matters of 
finance, contracting, and audit. So thank you very much, Mr. 
Chairman.
    Chairman Carper. Thank you, Senator McCaskill.
    Let me followup on her question just to say, what were the 
difficult issues you alluded to in the Gulf Coast matter that 
you personally addressed?
    Mr. Mayorkas. If I can give you the one that I recall 
specifically, and why I recall it specifically, Senator, is 
when I get involved in complex legal and policy issues or novel 
questions before us, what we seek to do is resolve them for the 
benefit of the agency as a whole and so that they have broader 
applicability. And the one complex issue that I remember so 
clearly is because we actually memorialized the resolution of 
that difficult issue in a new EB-5 policy memorandum that we 
published publicly and throughout the agency as guidance to our 
adjudicators in May of this year. And the resolution of that 
case, of course, showed up in prior drafts of the final 
memorandum that we just published.
    The issue is this: There is an administrative appeals 
decision published by our agency called ``In the Matter of 
Izummi,'' and one of the----
    Chairman Carper. In the matter of what?
    Mr. Mayorkas. Izummi. I believe it is I-Z-U-M-M-I or it 
could be I-Z-Z-U-M-N-I.
    Chairman Carper. That must be an acronym.
    Mr. Mayorkas. It is not.
    Chairman Carper. OK.
    Mr. Mayorkas. And one of the requirements in the EB-5 
program, just to reflect its complexity again, is that the 
foreign investor's capital must be at risk throughout the term 
of the investment. ``In the Matter of Izummi'' stands for the 
proposition that the existence of a redemption agreement in the 
transaction documents militate against the foreign investor's 
capital being at risk. In other words, if you can redeem your 
investment during the duration of the relevant time period, 
your capital is not at risk and, therefore, you do not satisfy 
the legal requirement.
    And the issue that the Gulf Coast case presented to my 
attention was the following: Is it the mere existence of a 
redemption agreement that disqualifies the individual from 
satisfying the legal requirement that the capital be at risk? 
Or is it a question of looking at the terms of the redemption 
agreement and whether the terms militate against the 
requirement that the capital be at risk?
    And in this case, to the best of my recollection, the 
individual investor, according to the deal documents, could 
convert his or her common shares to preferred shares, or vice 
versa, preferred shares to common shares--I do not recall. But 
the deal documents provided, the redemption agreement provided 
that there was not at the time a market for either the common 
shares or the preferred shares, nor may there ever be a market 
for those shares.
    And so the conclusion was reached around the table that, 
quite frankly, and as a matter of law, in the interpretation of 
the deal document, the redemption agreement, the capital 
remained at risk because there may not ever be a market for 
that capital and, therefore, the redemption may never be 
realized.
    That is an example of a difficult issue that can rise to my 
attention, and when we resolve it, what we do is we can provide 
guidance to our adjudicators so that they can adjudicate cases 
in strict adherence to the law more ably.
    The absolute core principle of our agency is that we 
adjudicate cases based on the facts and the law, and that is 
all.
    Chairman Carper. When I first learned about the EB-5 
program--I had heard about, but I will be honest with you, I 
did not know much about it until this month. And I have learned 
a bit and am still learning. But it seemed to me when I learned 
about it, I said this is a strange program to be located in 
this agency, the agency that you lead. It seems you would need 
people who have skills in economic development, 
entrepreneurship, innovation, who can realize that this is 
actually an idea somebody is willing to invest some money in 
from overseas.
    We have to have somebody who can look at this and say, 
``Does this actually make any sense? Is this something that 
actually brings value?''
    Would you just respond to that thought? And how do you make 
sure that you have the kind of people in your agency, not 
traditional immigration employees, but how do you make sure you 
have the kind of talent in your agency to help make the right 
judgments, the judgment calls?
    Mr. Mayorkas. Thank you very much, Mr. Chairman, for the 
question. I would like to answer it in a couple parts, if I 
may.
    We receive more complaints about our Administration of the 
EB-5 program than we do in any other area of our work.
    Chairman Carper. Is that right?
    Mr. Mayorkas. Yes. We receive complaints from the public, 
we receive complaints from applicants and petitioners, and we 
receive complaints from Members of Congress and from both 
parties.
    Chairman Carper. So this is bipartisan.
    Mr. Mayorkas. Oh, it is absolutely bipartisan, and there is 
probably not a week that goes by that I do not receive 
complaints from Members of Congress with respect to our 
Administration of the program. And, quite frankly, there have 
been a number of EB-5 program issues that have been raised to 
my attention from Members of Congress that I have addressed 
with my colleagues, and I recall that the Members' concerns 
were actually valid and we were able to resolve those around 
the table.
    Chairman Carper. Were there ever instances where maybe the 
Members' concerns were not as valid?
    Mr. Mayorkas. Most certainly, and we respond to the 
concerns not by who is the author of the concern but, rather, 
by what the facts and the law demand. That is our principle.
    EB-5 cases have been brought to my attention from within 
the agency. The Administrative Appeals Office brought an EB-5 
case to my attention because we were terminating an EB-5 
regional center for the first time, and we wanted to make sure 
that our decision was correct because the stakes are high and 
that the decision was well reasoned and well written. And so my 
office became involved there.
    As I mentioned, the EB-5 program really requires expert 
economic analysis and a clear and sophisticated understanding 
of business proposals and the myriad of legal and policy issues 
that those arenas raise.
    When I first came to the agency, I actually reached out to 
partners in the Federal Government when I learned about the EB-
5 program, and I posited to them that they needed to become 
involved as partners with us because they had the expertise to 
bring to bear. The Department of Commerce would be one example, 
and our discussions with other government agencies in sharing 
responsibility for the Administration of the EB-5 program are 
ongoing.
    In the interim, I have not stood still. I do not stand 
still when progress is needed. Progress is an obligation of 
ours to achieve. And what I did was I introduced economists to 
the EB-5 program. I brought them on board. We expanded the pool 
of adjudicators. I do not think that we did right for many 
years in support of our adjudicators because we put them in 
charge of cases and did not equip them with the tools to 
address those cases as I think they would most want, because 
they strive for excellence.
    I brought economic expertise, I brought business expertise, 
and I brought fraud detection and national security expertise 
to bear. Those efforts have been evolving, and most recently we 
decided to create a new EB-5 program. Embedded in it will be 
fraud detection and national security personnel and a greater 
level of economic and business expertise.
    Chairman Carper. One last question, and then I will yield 
back to Senator Heitkamp. Just to followup on this, in 
reviewing your FBI file, there was a reference to several 
employees who asserted that you had retaliated against them. I 
think they are maybe out in the California office. And in the 
report that I read, it said it was fully investigated and it 
was not viewed to be a matter of retaliation.
    Do you have any recollection of that?
    Mr. Mayorkas. I most certainly do.
    Chairman Carper. Now, can you just put a little bit of 
light on that, please?
    Mr. Mayorkas. The Office of Special Counsel determined that 
there were no facts to support the allegations.
    Chairman Carper. All right. Good.
    Mr. Mayorkas. Senator, let me, if----
    Chairman Carper. Go ahead.
    Mr. Mayorkas. Personnel decisions are very difficult to 
make. They are singularly the most taxing aspects of jobs when 
one has supervisorial responsibilities. One has to act in the 
best interests of the agency. Personnel moves are not 
necessarily disparagement, criticism of job performed or 
anything critical. But as a supervisor, as a manager, as a 
leader, one has to fit the needs of the agency with the talents 
of the people most ably. My commitment is to the agency as a 
whole as its Director, and my commitment is to the laws that we 
are sworn to uphold.
    Chairman Carper. Thank you. Senator Heitkamp.
    Senator Heitkamp. Mr. Chairman, I would like just for a 
moment to talk about becoming Deputy Secretary of Homeland 
Security, if that is possible. And I just really have one 
question, and that is, we are deeply concerned about the morale 
of the Department of Homeland Security, and I know that we have 
had these discussions before. But if you are, in fact, 
confirmed as the Deputy, what will you do to improve morale 
within the agency? And what steps would you take to bring, I 
think, more cohesion to the group?
    Mr. Mayorkas. Thank you very much, Senator. I have been 
honored and continue to be honored to work with the men and 
women of U.S. Citizenship and Immigration Services and the 
Department of Homeland Security, of which our agency is a part. 
We have an incredibly talented and dedicated workforce, a 
workforce that is deeply committed to the mission of the 
Department and that loves its mission.
    It would be my responsibility, should I have the honor of 
being confirmed, to ensure that our workforce has the tools 
that they require to perform their work at the very highest 
levels of excellence to which they aspire, that they feel fully 
engaged in the execution of the mission, that they feel fully 
supported, that they are trained, that they are provided with 
transparent and open and fair processes. I will engage with the 
workforce, and I would, if confirmed, engage with this 
Committee and focusing to ensure that the morale of each and 
every individual within the Department is as high as it should 
be when one considers the talent of the people and the nobility 
of the mission.
    Senator Heitkamp. When you talk about the tools, because we 
all know that what can affect morale is the lack of ability to 
do your job, knowing your job but not having the tools, what 
additional tools do you see as essential to the work of the 
Department of Homeland Security?
    Mr. Mayorkas. Senator, thank you. Let me, if I can, draw 
upon my experience at U.S. Citizenship and Immigration Services 
because I have spent a great deal of energy and focus on the 
well-being of our workforce.
    The workforce in USCIS has asked for more training. Our 
immigration law and policy is ever evolving. New decisions are 
issued, new challenges arise, and they have asked for enhanced 
training, and we have delivered.
    They have asked for opportunities for growth, for 
professional development, and we at USCIS have delivered 
professional development programs, details for employees to be 
exposed to different parts of the agency to grow.
    Managers have asked for training on how to manage, how to 
manage people, how to lead people. Very often we pick managers 
who are experts in the subject matter at issue but not 
necessarily expertly trained in how to bring out the best in 
people, how to assist people when they have challenges and how 
to promote people when they have successes.
    Those are some examples of tools that a workforce requests 
and a workforce deserves.
    Senator Heitkamp. Just one final point. As you have 
disparaged the appearance of your brothers, we just want to 
point out that some might suggest that they are better looking 
than you are. [Laughter.]
    Mr. Mayorkas. Senator, they have not gone through three 
confirmation hearings. [Laughter.]
    Chairman Carper. I would just acknowledge that you may have 
lost some of your hair. You have not lost your sense of humor. 
So that is good.
    We have been joined by Senator Tester from Montana. Senator 
Tester, the floor is yours. Welcome. Thanks for coming.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thanks. I am sorry I was late.
    Chairman Carper. We are glad you are here.
    Senator Tester. Do not take Senator Heitkamp's remarks to 
heart because she always talks about me being ugly, too. So--
no, just kidding.
    First of all, thanks for being here, and as we talked in my 
office, I appreciate your willingness to serve this country. We 
are in a situation where Janet Napolitano has stepped down, and 
so consequently there will be a leadership void within the 
Administration.
    If confirmed, how will you work with the Administration and 
Congress to make sure the Department is moving forward even 
though there are going to be so many positions of leadership 
missing at the Department?
    Mr. Mayorkas. Thank you very much, Senator Tester, for the 
question. If I have the privilege of being confirmed as the 
Deputy Secretary, I would work with this Committee to ensure 
that the President's nominees to fill the vacancies in the 
Department of Homeland Security are completed successfully, as 
swiftly as possible. And in the interim, Senator, I can say 
unequivocally that we have tremendous talent within the 
Department of Homeland Security to ensure that the mission of 
the Department is accomplished successfully, effectively, and 
efficiently until those vacancies are filled.
    Senator Tester. OK. I want to talk about visa overstays. As 
you know, 40 percent of the folks who are here improperly are 
because of visa overstays. It is a huge problem in processing, 
identifying, modifying, monitoring, or apprehending individuals 
who overstay their visas.
    From your perspective, is this an issue of inadequate 
manpower, inadequate focus, resources? Are there statutory 
obstacles in the road? It seems to me 40 percent is a little 
over the top. And so why is that?
    Mr. Mayorkas. Thank you very much, Senator. Your question 
is a very important one. The Department of Homeland Security 
has made great strides in addressing the problem of visa 
overstays. Immigration and Customs Enforcement (ICE), one of 
the agencies primarily responsible for the enforcement area, 
has significantly improved in its battle to combat visa 
overstays. We have developed enhanced biographical data to 
ensure that we are aware of the individuals who have overstayed 
their visas. And what I will do immediately, Senator, is ensure 
that Immigration and Customs Enforcement reaches out to your 
office and informs you with great detail of the tremendous 
strides that they have made in addressing the visa overstay 
problem because they have done so in recent months.
    Senator Tester. Well, I appreciate that, and I think that 
the immigration bill that recently passed the Senate went a 
long way in eliminating a lot of those visa overstays. And as a 
side comment, hopefully the House will take that up and not 
play politics with it, because it really is important for the 
country.
    Montana is home to seven American Indian reservations and a 
State-recognized Little Shell tribe. In the past, I have worked 
to ensure that DHS maintains a strong relationship with all of 
our tribal partners.
    From a personal perspective, do you have any experience 
working with tribal leaders, either in past roles as a U.S. 
Attorney, or in your current position?
    Mr. Mayorkas. Thank you, Senator. I do. When I was a U.S. 
Attorney, I worked with tribal leaders to address some of the 
challenges that they had in the Central District of California 
with respect to enforcement issues on reservations as well as 
certain civil matters with respect to specifically California 
issues, legal issues, involving Indian gaming.
    I have worked extensively with tribal leaders during my 
tenures in the United States Attorney's Office, and I take 
great pride in the collaboration and close working relationship 
that I was able to achieve with them. And, if confirmed, I 
would carry that collaborative teamwork approach to my duties 
as Deputy Secretary.
    Senator Tester. Well, I appreciate that, and I may have 
some more questions for the record. I appreciate the Chairman 
at this late time allowing me to ask a few questions.
    I will go back and just say I wish you the best. We need 
good people in the Department of Homeland Security. We need 
people who can carry out this task, because it is a important 
one. Hopefully, what has gone on here today will stop and we 
will get you confirmed and get you back to work.
    Mr. Mayorkas. Thank you very much, Senator. It would be an 
honor.
    Chairman Carper. Thank you. Thank you, Jon.
    My staff has given me a little bit of information on the 
EB-5 program. I asked you earlier with tongue only partly in 
cheek to give us EB-5 101, and I think I said that my 
understanding was that the program was created in 1992 when we 
were in a recession. Actually, it was created in 1990 when we 
were just going into a recession, and there was some interest 
in trying to make sure it was short-lived.
    I think the program in 1993 was modified, and I think 
Congress added at that time something called the immigrant 
investor pilot program in order to encourage immigration 
investments through designated regional centers. Designated 
regional centers. I do not recall hearing much about designated 
regional centers in 1993. I had just become Governor of my 
State. But we have all heard of enterprise zones, and when I 
hear the designated regional center, I liken it to an 
enterprise zone.
    But just talk to us about designated regional centers. How 
do they work? And the kind of people that are actually 
responsible for trying to get them established and then collect 
funds to fund the entrepreneurial activities there? Just give 
us a little bit of discussion on that, please.
    Mr. Mayorkas. Thank you very much, Senator. The regional 
center program is indeed a pilot program. The EB-5, that pilot 
program was reauthorized, I believe it was last year. I am not 
quite certain, but it was reauthorized.
    Chairman Carper. As a matter of fact, my notes here say 
introduced in 2012, the word ``pilot'' was removed from the 20-
year-old program, provided a 3-year reauthorization of the 
regional center model, legislation introduced by Senators Leahy 
and Grassley, cosponsored by a number of our colleagues, 
including Collins, Conrad, Hatch, Kohl, Lee, Rubio, and 
Schumer, adopted by unanimous consent. That was about a year 
ago.
    Mr. Mayorkas. Senator, the regional center is an area of 
economic activity in which commercial enterprises can be 
developed into which foreign capital can be invested in the EB-
5 program and the jobs can be created in that area of economic 
activity.
    The popularity of the regional center program has increased 
exponentially over the years, and over the last 4 years, for--
--
    Chairman Carper. Do you think it had something to do with 
the fact that we are in the worst recession since the Great 
Depression and we are looking for ways to create jobs and this 
was an effort to try to draw capital into job creation in this 
country? Do you think that is what is going on?
    Mr. Mayorkas. Senator, outside reports have concluded that 
indeed the EB-5 program and specifically the regional center 
program within it has grown exponentially over the last few 
years because capital has been difficult to raise in a 
challenging economy. There is a great deal of interest amongst 
individuals in other countries to immigrate to the United 
States, and those who can afford it find the EB-5 program to be 
a valuable means of doing so.
    Chairman Carper. So is the rationale here they are 
investors, entrepreneurs in other countries that have maybe 
good ideas, business ideas, they have some money, and we are 
looking for somebody who will invest capital here for job 
creation here rather than compete with those folks from another 
country? Is that--that is my understanding. Is that close to 
correct?
    Mr. Mayorkas. That is. Mr. Chairman, specifically that 
individuals with the requisite amount of capital--it is either 
a minimum of $500,000 or a minimum of $1 million, depending on 
where the regional center is located, whether it is in a 
targeted employment area, an area of acutely high unemployment 
or otherwise. They will invest their capital, that requisite 
amount of capital in a regional center, and if U.S. jobs are 
created, they will have conditional lawful permanent resident 
status, as I outlined earlier, and if they qualify under the 
other eligibility requirements.
    Why the regional center has grown exponentially, as well as 
the economic factors that others have concluded as a causal 
link, is because when the investment is in a regional center as 
opposed to a new commercial enterprise outside of a regional 
center, the job creation can be computed to include not only 
direct job creation but indirect job creation--in other words, 
not necessarily just employees of the new commercial 
enterprise, but people--jobs that are created as a result of 
the new commercial enterprise. Suppliers to the new commercial 
enterprise would be a perfect example. If a supplier increases 
its workforce by virtue of the new commercial activity and jobs 
are created that are attributable to the regional center, then 
that job creation is attributable to the capital invested and 
counts to the job creation requirement. And this is where the 
complex economic methodologies, the econometric models to 
assess potential for job creation, come into play. And if one 
presented those to me, even though I practiced as a lawyer for 
many years, I would not know how to adjudicate them. They are 
extraordinarily complex. They fall within the purview of 
economic expertise, and that is why we have brought that 
expertise to bear.
    There is one very important additional point that I would 
like to make, and that is the following: That with growth in a 
program comes the potential for challenges to the program's 
integrity. And we have, of course, seen cases where individuals 
have sought to make misrepresentations to us in order to avail 
themselves of the program for which they are not qualified or, 
worse yet, individuals who seek to avail themselves of entry 
into this country through the EB-5 program when they very well 
may pose a threat to this country.
    Chairman Carper. What do you do about that kind of fraud?
    Mr. Mayorkas. Well, we have done a great deal, because this 
is our highest priority: to help secure our Nation and to 
protect the integrity of the system of which we are guardians. 
We have reached out to the law enforcement and intelligence 
communities, and we have developed stronger and closer working 
relationships. We have increased the staffing of our fraud 
detection and national security personnel. We are embedding 
them in the EB-5 program. We have reached out to the Securities 
and Exchange Commission (SEC) to make sure that the securities 
laws are upheld.
    I reached out, based upon my relationships from my law 
enforcement days, to the highest levels of the SEC to make sure 
that they brought their enforcement efforts and their 
enforcement expertise to this very important area. We were 
substantial cooperators and partners in the first successful 
SEC enforcement action against an EB-5 program in Chicago, 
Illinois.
    Chairman Carper. Give us some idea, how do these designated 
regional centers become created? What has to happen? Are there 
a lot of them? Are we talking about a few, a dozen, scores, 
hundreds?
    Mr. Mayorkas. I do not know the number of regional centers 
that exist currently.
    Chairman Carper. Would it be more than a hundred? Less than 
a hundred?
    Mr. Mayorkas. I do not want to speculate, Mr. Chairman.
    Chairman Carper. OK.
    Mr. Mayorkas. But I can certainly provide that information 
to the Committee.
    Chairman Carper. Thank you, if you would.
    How do they get created? What is the process?
    Mr. Mayorkas. So from my understanding, because I sit as 
the Director and I do not get involved in seeing the actual 
applications and petitions, the business plans themselves, but 
people come up--develop business ideas for the development of 
commercial enterprises----
    Chairman Carper. ``People'' being American people, American 
business people?
    Mr. Mayorkas. People here in the United States.
    Chairman Carper. OK.
    Mr. Mayorkas. And they develop business plans for the 
development of those enterprises, those commercial enterprises. 
And once those business plans and commercial enterprises are 
outlined and they have approval from us to proceed, they begin 
to attract investors. And, quite frankly, I do not know if they 
begin to attract investors before we approve them or not, but 
they develop their business plans. They begin to execute on 
their business plans. They present their business plans to us. 
And if we approve them as regional center designations, they 
proceed with the execution of their plans from there.
    Chairman Carper. Knowing my colleagues and me, if I had 
somebody that wanted to create jobs in Delaware and they wanted 
to create one of these designated regional centers in order to 
increase employment opportunities in my State, I would probably 
be interested in seeing that succeed. You mentioned a number of 
my colleagues, Democrat and Republican--I do not think I have 
ever reached out to your office on this, but a number of our 
colleagues actually do call your office, and in some cases you, 
and say, ``There is this effort to create employment activity 
in my State,'' and they probably do not call just to say, ``You 
all are doing a great job. Keep it up.'' Maybe they do. But my 
guess is they probably call to raise concerns.
    Would you talk about the nature of the concerns that our 
colleagues might raise or a Governor might raise and the kind 
of concerns that might be raised by someone who is attempting 
to establish one of these designated regional centers, like, 
``It is taking too long,'' or, ``I do not like your decision, 
you have not agreed to establish this center''? Can you just 
share with us the nature of those conversations?
    Mr. Mayorkas. Thank you, Mr. Chairman. We received e-mails, 
calls, letters from Members of Congress of both parties with 
respect to the EB-5 program more often than weekly and more 
often than one a week, I assure you. And the interest, of 
course, is in the infusion of capital into a particular 
jurisdiction and the creation of jobs for U.S. workers in that 
jurisdiction, a need and a priority that is acutely held in 
times of economic challenge.
    The complaints vary widely. One that we most often hear is 
that we are taking too long. We have goals of approximately 6 
months, but we do not meet that goal. Rarely do we, and 
sometimes the time period extends far longer, sometimes for 
very important and valid reasons, making sure we are right, 
according to the law and the facts, making sure that the 
integrity of the application is assured, making sure that there 
is not a threat to our security. We are being inconsistent in 
our adjudications. We are being untimely. We are not adhering 
to the law. We are not following our established policies. The 
complaints are very diverse.
    There was one very notable complaint that I recall because 
it accused us of being unfair, that we had made adjudicative 
decisions in a case and then subsequently we changed our mind. 
And the concern of the Member of Congress was that seemed to be 
inequitable, that investors and business developers had relied 
on our earlier decisions, and for us to change course midstream 
seemed inequitable. And I looked into that, consistent with the 
principles to which I referred at the outset of this hearing, 
when something speaks of a difficult legal or policy challenge 
that the agency confronts.
    And I looked into that matter around the table with my 
colleagues, and I agreed with the concern. And my colleagues 
asked me to get involved, to assist in the resolution of that 
matter, and I did. And what I did was I made--a decision that 
was going in the wrong direction, I made it right. I made it 
right in the spirit and the letter of the law and the policies 
that we are sworn to uphold.
    The temperature of the complaints that we receive are 
equally diverse as the nature of the complaints, and neither 
the temperature with which the complaint is made nor the author 
of the complaint are material to our decisionmaking. The 
decisionmaking is based on the law and the facts. And when I 
get involved in an issue like the EB-5 issue to which I just 
referred, like the EB-5 issue I described in the Gulf Coast 
matter, my guiding principle is no different than the guiding 
principle of the adjudicator and the guiding principle that I 
have articulated and emphasized throughout my tenure. We do 
what the law and the facts require, and nothing less and 
nothing otherwise.
    Chairman Carper. All right. My understanding is that among 
the many people establishing or attempting to establish one of 
these designated regional centers was Terry McAuliffe, who was 
interested in bringing green card technology to the State of 
Virginia in one of these regional centers, ultimately ended up 
doing it, I think, in the Gulf Coast States, and I think one of 
the reasons why Senator Landrieu was here is because 
apparently, as part of the economic development issues in her 
State, they are interested in creating a regional center--this 
is my understanding--and would like to encourage that kind of 
thing.
    But could you just share with us any communication you had 
with Mr. McAuliffe with respect to the effort to create one 
center in Virginia or maybe one on the Gulf Coast, any meetings 
you had with him, any telephone conversations that you recall?
    Mr. Mayorkas. Thank you very much, Mr. Chairman. I was 
asked to attend a meeting with Mr. McAuliffe so that I could 
hear in person his complaints.
    Chairman Carper. And what year was that?
    Mr. Mayorkas. I do not quite recall. It was quite some--2 
years ago?
    Chairman Carper. All right.
    Mr. Mayorkas. Quite some time ago. And I heard those 
complaints, and that was the extent of the interaction.
    I should say that I engage with the public very often. I 
meet with associations, groups, individuals, representatives, 
and the like who voice concerns, who praise us when we do jobs 
well. One of my areas of focus on behalf of the agency as a 
whole is to increase and elevate the level of public engagement 
so that we are a transparent agency, transparent not only to 
the public that we serve but to the media whose responsibility 
it is in part to hold us accountable, and, of course, to this 
Committee, to the Committee of oversight to which we are held 
accountable.
    I heard Mr. McAuliffe's complaints, and I moved on with my 
work.
    Chairman Carper. Did you ever hear from him again after 
that meeting?
    Mr. Mayorkas. I recall Mr. McAuliffe----
    Chairman Carper. Let me just back up. Did you come back to 
your agency and say, after the meeting with him and the other 
folks that were part of the meeting, let us do things 
differently, let us change what we are doing, let us change our 
course, I had this meeting? And how did you react once you got 
back to work?
    Mr. Mayorkas. The answer to your question, Mr. Chairman, is 
absolutely not. I do remember returning to the office and 
complaining about the fact that I had to hear complaints.
    Chairman Carper. All right.
    Mr. Mayorkas. That is all.
    Chairman Carper. And you are probably used to hearing 
complaints about this program. It sounds like there are a lot 
of them.
    Mr. Mayorkas. Yes.
    Chairman Carper. From elected officials and from those who 
are not.
    Mr. Mayorkas. Yes. And my mantra to the workforce is the 
following: ``Do not shrink from criticism. Just work very hard 
not to deserve it.''
    Chairman Carper. OK. I think the basic question here is, 
for those who are suggesting that these unnamed sources and 
innuendo and anonymous assertions, is the question of whether 
you, if you will think of the scales of justice, if you have 
placed your hand on the scales of justice, to somehow--whether 
it was in the case of the business case in the Gulf Coast or 
other places, whether you have placed your hand on the scales 
of justice to change a decision that is being made by the folks 
in your agency. Would you just respond to that on the record, 
please?
    Mr. Mayorkas. Mr. Chairman, for 12 years as a Federal 
prosecutor, I served as an officer of the court. I do not--I 
have not changed my approach to the execution of my 
responsibilities. I continue to hold myself up as an officer of 
the court. I enforce the law. I enforce the law based on the 
facts. I do not put my finger on the scale of justice. The 
scale of justice is based on the facts and the law, and nothing 
else.
    And I should say that Gulf Coast complained in 2011, they 
complained in 2012, and they continue to complain in 2013. And 
we will follow the law and administer the law based on the 
principles which I articulated and nothing less and nothing 
otherwise. And I will say for someone to be accused of tipping 
the scales and in 2013 referring the matter to the Fraud 
Detection and National Security Directorate for appropriate 
action based upon a question of the project's integrity seems a 
bit contradictory.
    Chairman Carper. Yes, it does.
    Mr. Mayorkas. It is very difficult to have allegations 
swirling and not have had an opportunity to address them. And I 
am eager to be interviewed by the Inspector General's Office, 
and I wish I had been interviewed earlier.
    Chairman Carper. I wish we had an Inspector General 
confirmed by the Senate in place to do that in this Department. 
Two years have passed since we have had that.
    One last question. The vote has started, so I will ask 
maybe one last quick question before we close and then give you 
a short opportunity to make a closing statement of your own.
    In my old role as Governor, every month I would meet with 
my legal counsel, and we would go over requests for pardons, 
requests for commutations, and my legal counsel would make 
recommendations. We would go through the case. I used to serve 
on the Board of Pardons when I was State treasurer. And from 
time to time, my staff would reach out to other people and ask 
them questions, this person is coming before the Governor, 
recommended for a pardon or commutation by the Board of 
Pardons, and we would ask for input.
    One of my colleagues I think raised with you a question 
about a pardon that was being considered by President Clinton 
near the time that he left office. As we all know, when 
Presidents are about to leave office, there is kind of a rush 
to see if we cannot get a President to issue a pardon or a 
commutation. And our understanding from one of my colleagues is 
that someone reached out to you from the Clinton White House 
and asked a question about a particular case. Can you just 
share that with us and share with us the nature of that 
discussion, that conversation?
    Mr. Mayorkas. Yes, Mr. Chairman----
    Chairman Carper. I just want to get it clear. I think you 
responded to this before. I will ask you to respond to it one 
last time.
    Mr. Mayorkas. Most certainly, Mr. Chairman. Thank you for 
the opportunity. Yes, that question was posed to me when I 
appeared before the Judiciary Committee of the U.S. Senate in 
the confirmation hearing for the position of Director of U.S. 
Citizenship and Immigration Services, which I now hold. The 
White House reached out to me when I was the United States 
Attorney for the Central District of California and asked me 
whether I supported the commutation of a narcotics trafficker 
that had been prosecuted in the District of Minnesota by my 
colleague, my fellow United States Attorney, and I informed 
them that I did not support the commutation, that I did not 
know the facts of the case, and that deference should be 
afforded to the Federal prosecutor in the District of Minnesota 
who prosecuted that case.
    Chairman Carper. Thank you.
    The last thing I want to do is just give you an opportunity 
to make a very short statement, a short closing statement, and 
then I want to make one of my own, and I am going to run and 
vote. Please. Thank you for your testimony today.
    Mr. Mayorkas. Thank you very much, Mr. Chairman, for the 
privilege of appearing before you and before the distinguished 
Members of the Committee.
    Let me, if I can, say that one of the greatest sources of 
honor that I have had in my professional career is to serve 
alongside the men and women of the United States Citizenship 
and Immigration Services. It is an extraordinarily dedicated 
and talented workforce.
    It has been equally an honor to serve as an Assistant 
United States Attorney and United States Attorney. I love 
public service. I love aspiring to fulfill the highest ideals 
of public service. I love being an officer of the court. I love 
being a guardian of the law. I love the privilege and the honor 
of always doing the right thing.
    I also love my family. I love my two brothers that are 
here. And I love the family that they are representing here.
    I adored my parents. My parents were individuals of 
unflinching integrity and ethics and honor. And I have executed 
my public service responsibilities in a way in which they would 
be proud. And if I have the privilege of being confirmed as the 
Deputy Secretary of Homeland Security, I will continue to do 
so.
    Thank you.
    Chairman Carper. Thank you for those words.
    When we met earlier this week, we talked a little bit about 
your parents. I am sure you will recall that. And you said 
these words, and I will paraphrase, but I think this is pretty 
much what you said. You said: I live my life to honor my 
parents. And I think if your parents were here today--I am sure 
they are tuning in, looking down--my guess is they are very 
proud of their three sons.
    I think it was Thomas Jefferson who used to say, ``If the 
people know the truth, they will not make a mistake.'' The 
purpose for this hearing is to try to ensure that we get to the 
truth, that we do not hear about rumor and innuendo and 
unconfidential sources, anonymous sources for investigations 
that take not just weeks but months, now almost a year. We have 
to get to the truth. You have helped us to get there. And while 
I am disappointed that some of our colleagues could not join us 
today, my hope is that they will have an opportunity to 
consider what has happened today and what we have heard today 
and what we have learned.
    I also hope that the Inspector General or the Acting 
Inspector General or whoever is in charge in the Inspector 
General's shop these days over at the Department of Homeland 
Security, I hope they will put their foot on the accelerator 
and get this done. Justice--what is the old saying? ``Justice 
delayed''----
    Mr. Mayorkas ``Is justice denied.''
    Chairman Carper [continuing]. ``Is justice denied.'' And we 
have a Department that is without a confirmed Deputy Secretary, 
will soon be without a Secretary, that has gaping holes in its 
leadership, and we need to address it. Of all the departments 
of our Federal Government, this one, perhaps more than any, 
needs leadership, needs strong leadership, and they have had 
that in Janet Napolitano and Jane Holl Lute, and you and others 
with whom you serve. And God knows they are going to need it in 
the months and the years to come as we deal with cyber attacks, 
which are occurring at this very moment, with terrorist 
attacks, which are being planned this day, with the challenges 
that will come from immigration reform legislation if we are 
able to implement it, and with God knows how many other 
challenges that are before us.
    The last thing I would say is just a word on integrity. One 
of my favorite sayings is, ``Integrity''--I do not know who 
said this, but it is a good one. ``If you have got it, nothing 
else matters. Integrity, if you do not have it, nothing else 
matters.'' And it sounds like to me that your parents infused 
in you and your brothers a fair amount of integrity. And we 
appreciate that. We appreciate your presence here.
    This hearing record will remain open until noon tomorrow, 
July 26th at 12 p.m., for the submission of statements and 
questions for the record.
    With that, this hearing is adjourned. Thank you all.
    Mr. Mayorkas. Thank you, Mr. Chairman.

    [Whereupon, at 12:40 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
